CERTIFICATE OF SERVICE
I hereby certify that, on this 22nd day of September, 2020, I caused one copy of the foregoing
Reply in Support of Petition for a Writ of Certiorari, in Rodriguez v. City of San Jose, No. 191057, to be served by e-mail and through the Court’s electronic filing system and that the parties
have agreed to electronic service in lieu of paper copies:
Matthew W. Pritchard
Malgorzata Laskowska
City of San Jose, City Attorney’s Office
200 East Santa Clara Street, 16th Floor
San Jose, California 95113-1905
matthew.pritchard@sanjoseca.gov
mwpritchard1321@gmail.com
margo.laskowska@sanjoseca.gov
I further certify that all parties required to be served have been served.

s/ Donald E.J. Kilmer, Jr.__________
Donald E.J. Kilmer Jr.

